           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


  FOLLOW-UP REVIEW OF OLD-AGE,
    SURVIVORS AND DISABILITY
   INSURANCE BENEFITS PAID TO
       DECEASED AUXILIARY
          BENEFICIARIES

     June 2003   A-01-03-13037



   AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   June 13, 2003                                                                   Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Follow-up Review of Old-Age, Survivors and Disability Insurance Benefits Paid to
        Deceased Auxiliary Beneficiaries (A-01-03-13037)


        Our objective was to determine whether the Social Security Administration (SSA)
        implemented the recommendations in our June 2001 report, Old-Age, Survivors and
        Disability Insurance Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043).

        BACKGROUND
        The Old-Age, Survivors and Disability Insurance (OASDI) program provides retirement
        benefits to insured individuals who have reached the minimum retirement age,
        survivors’ benefits to dependents of insured wage earners in the event the family wage
        earner dies, and disability benefits to disabled wage earners and their families.
        Children, widows, spouses, and parents who receive OASDI benefits based on another
        wage earner’s Social Security record are referred to as auxiliary beneficiaries—and their
        benefit payments should terminate when they die.1

        When SSA receives notification of a death (for a beneficiary or non-beneficiary), it is
        recorded on the Agency’s Numident file2 and becomes part of the Death Master File
        (DMF).3 SSA uses the Death Alert, Control and Update System (DACUS) to receive
        death data from external and internal sources and to process that information against
        SSA's payment records.

        Our June 2001 report identified 5,033 auxiliary beneficiaries who appeared to be
        receiving OASDI benefits despite having a date of death on SSA’s DMF. Based on our
        work, we estimated

        1
            As stated in 20 CFR §§ 404.316, 404.332, 404.337, 404.341, 404.352, and 404.371.
        2
         The Numident file contains identifying information (such as name, date of birth, date of death, mother’s
        maiden name, etc.) for each individual issued a Social Security number.
        3
          The DMF is the repository for adding, correcting, and deleting death information received from SSA’s
        routine death matching operation and is housed on SSA’s Numident file.
Page 2 – The Commissioner



   881 deceased auxiliary beneficiaries were paid $31 million in OASDI benefits
    between their deaths and December 2000, and

   4,152 auxiliary OASDI beneficiaries had dates of death recorded on the DMF but
    were actually alive as of December 2000.

We concluded that improvements could be made to SSA’s death matching process to
ensure OASDI benefits are terminated when death notices are received for auxiliary
beneficiaries. We recommended that SSA:

1. Periodically (at least annually) match its DMF against its auxiliary payment records
   to identify records in which a date of death is posted on the DMF but for which
   payment records show current benefit payments.

2. Resolve the discrepancy between the dates of death on the Numident file and the
   current payment status on the Master Beneficiary Record (MBR)4 for the
   2,721 records in our population that were not being reviewed by the Office of the
   Inspector General’s (OIG) Office of Investigations and were not included in our
   sample. Refer any cases suspected to involve fraud to the Office of Investigations.

3. Remind staff to fully follow SSA’s procedures when processing death alerts to
   ensure all records requiring action are identified and corrected.

SCOPE AND METHODOLOGY

To accomplish our objective, we:

   Reviewed our June 2001 audit report, Old-Age, Survivors and Disability Insurance
    Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043).

   Analyzed the MBRs and Numident records of the 2,721 cases identified in our prior
    audit recommendation to determine whether SSA resolved the cases.

   Coordinated our work with the Office of Investigations to determine whether
    instances of possible fraud were referred to the OIG.

   Matched an August 2002 data extract of the MBR with SSA’s DMF to identify
    auxiliary beneficiaries receiving OASDI payments despite their dates of death.
    Then, determined how many of these cases were unresolved as of December 2002.

   Researched and analyzed SSA’s efforts to improve its death matching process.



4
 An MBR consists of information related to a beneficiary’s entitlement to OASDI benefits (Program
Operations Manual System, section SM 00510.002).
Page 3 – The Commissioner


We conducted our audit between October 2002 and February 2003 in Boston,
Massachusetts. We determined the death and benefit payment data were sufficiently
reliable to meet our audit objectives. However, we found inconsistencies in the death
and benefit payment files that are discussed later in this report. The entities audited
were SSA’s field offices under the Deputy Commissioner for Operations and the Office
of Disability and Supplemental Security Income Systems under the Deputy
Commissioner for Systems. We conducted our audit in accordance with generally
accepted government auditing standards.

RESULTS OF REVIEW
Generally, SSA implemented the recommendations from our prior audit report.
Specifically, SSA (1) initiated a quarterly match between the DMF and MBR,
(2) resolved 98 percent of the cases we asked the Agency to review, and (3) reminded
staff to fully follow procedures when processing death alerts.

However, we identified the following three issues that require further attention.

      SSA’s quarterly matches between the MBR and DMF did not identify 2,069 cases
       where the auxiliary beneficiaries were receiving payments with dates of death on
       their Numidents.

      SSA did not timely resolve all the auxiliary beneficiary cases identified from its
       quarterly MBR-DMF matching operation.

      SSA did not refer all instances of possible fraud—where payments were actually
       made after death and the Agency was unable to recover the funds—to the OIG’s
       Office of Investigations.

SSA’s EFFORTS REGARDING ITS DEATH MATCHING PROCESS

SSA did not fully implement our prior recommendation to match the DMF against the
MBR. Despite significant efforts to improve its death matching process through
quarterly matches, SSA did not identify all auxiliary beneficiaries who had dates of death
and were receiving OASDI benefits.

SSA’s Quarterly Match of the MBR and DMF

In March 2001, SSA initiated work to match all auxiliary payment records on the MBR
against the Agency’s DMF. After validating the new matching operation, the Agency
started quarterly matches of the DMF against the MBR in February 2002. The resulting
cases were sent to the appropriate SSA field office for resolution. Since the initial
Page 4 – The Commissioner


February 2002 quarterly match—and subsequent matches in May, August, and
November 2002—SSA has identified 13,056 primary and auxiliary beneficiaries in
current payment status with dates of death.5

Despite SSA’s quarterly match between the DMF and MBR, we identified 2,699 auxiliary
beneficiaries who were still in current payment status with dates of death as of August
2002.6 SSA should have identified the 2,699 auxiliary beneficiaries during its quarterly
matches in Calendar Year 2002. However, our comparison of the 2,699 records with
the 13,056 records from SSA’s 4 quarterly matches showed the following.

   The Agency only identified 630 (23 percent) of the 2,699 auxiliary beneficiaries who
    were receiving OASDI benefits despite having dates of death. Further analysis of
    the 630 beneficiaries showed 564 cases (90 percent) remained unresolved after
    9 months. These 564 cases were identified in SSA’s first quarterly match (in
    February 2002) and remained unresolved as of the fourth match (in
    November 2002)—9 months later.

   The Agency did not identify the remaining 2,069 records (77 percent) in any of its
    4 quarterly matches. Our analysis of these 2,069 records found that 81 percent
    were dually entitled7—1 reason cited in our prior report as to why SSA’s normal
    death matching process did not identify these cases.8

See Appendix B for additional information on the 2,699 records we identified.




5
  Each of the 4 quarterly matches identified approximately 10,000 records—for a total of 41,894 records.
However, this only represented 13,056 beneficiaries as cases appeared in subsequent matches if they
remained unresolved. We analyzed the 13,056 records as of February 2003 and found 2,043 had the
dates of death removed from the Numident—indicating the deaths were erroneous—and SSA took
appropriate corrective actions. We did not do any further analysis of the remaining 11,013 records.
6
 We matched the MBR and DMF as of August 2002. We then analyzed the records as of
December 2002 to determine how many auxiliary beneficiaries were still receiving benefits despite having
dates of death.
7
 Dual entitlement exists when a beneficiary is both eligible and entitled to receive OASDI benefits on
more than one SSN, and payments can be made on both records.
8
 In February 2003, we requested that SSA review its quarterly matching process to determine why all
auxiliary beneficiaries receiving payments with dates of death were not identified through the matches
between the DMF and MBR.
Page 5 – The Commissioner


OIG’s Analysis of Payment and Death Records

We analyzed the 2,699 records identified in our own match and found activity on
854 indicating the dates of death may have been erroneous. Specifically, we found

        567 auxiliary beneficiaries with Critical Payment System9 data;

        195 auxiliary beneficiaries died before, or in the same month of, the date of their
         initial entitlement for benefits; and

        92 auxiliary beneficiaries had the same dates of death as their primary wage
         earners’ dates of death.

Conversely, we found indications that 765 of the 2,699 beneficiaries may actually be
deceased. Specifically, these 765 beneficiaries had 2 payment records—1 under their
own Social Security number (SSN) and 1 under another wage earner’s SSN. The
payment record under their own SSN either had a date of death posted to it or the
OASDI benefits were terminated because of death. Whereas, the auxiliary payment
record for these 765 individuals was still in current payment status as of
December 2002.

Our analysis of electronic records for the remaining 1,080 beneficiaries did not find any
indications of whether the beneficiaries were deceased or alive. To resolve these
cases, SSA field office staff will need to attempt to locate the individuals.

In February 2003, the Office of Investigations accepted referrals for 980 of the
2,699 cases as part of its BIC D project.10 We turned the remaining 1,719 cases over to
SSA for resolution in February 2003.11

As SSA and/or the Office of Investigations resolve these 2,699 cases, erroneous death
information will be removed from the living beneficiaries’ records, and payments will be
terminated for those auxiliary beneficiaries who are actually deceased. Furthermore, by
resolving these cases and stopping benefit payments as soon as possible after a
beneficiary’s death, SSA will be taking steps to implement the President’s Management
Agenda item to reduce improper payments.



9
 The Critical Payment System pays retroactive OASDI benefits in special situations where MBR
payments are not made because of processing errors—such as erroneous death terminations.
10
   The Office of Investigations initiated its BIC D project in Fiscal Year 2001. The purpose of the project
was to identify and investigate cases where OASDI benefits continued to be paid to widows despite dates
of death recorded on the DMF.
11
  As of April 2003, SSA had resolved 238 of the 1,719 cases (14 percent)—benefits were terminated
because of death for 138 cases and erroneous death information was removed from SSA’s records for
100 cases.
Page 6 – The Commissioner


SSA’s Efforts to Reduce Payments After Death

In addition to the work SSA did to match the MBR and DMF, SSA took other steps to
improve its death matching process.

          In September 1999, SSA contracted with the National Association for Public
           Health Statistics and Information Systems, an association of State vital records
           directors and registrars, to develop standards and guidelines for a proposed
           nation-wide system of electronic death registration. This system would enable
           SSA to receive death reports within 5 days of death and 24 hours of receipt in the
           State Bureau of Vital Statistics. As of January 2003, this project was still in the
           development stage, but it is one of several Office of Management and Budget e-
           Government initiatives.

          Another e-Government initiative SSA is involved in is the Electronic Verification of
           Vital Events pilot program. This new system allows SSA personnel to request
           and receive certifications and/or verifications of death events from States over
           the Internet. As of February 2003, SSA implemented this program in eight pilot
           sites,12 and the pilot is scheduled to continue through the end of Fiscal
           Year 2003.

          In May 2002, SSA made a policy change to address returned payments
           indicating the beneficiary is deceased. Under the new policy, the system
           suspends benefits and a verification process is undertaken before benefits are
           terminated or reinstated.

RESOLVING DISCREPANCIES AMONG PAYMENT AND DEATH RECORDS

Generally, SSA implemented our recommendation to resolve the discrepancies
between the dates of death on the Numident file and the current payment status on the
MBR for the 2,721 records identified in our prior report. Our review of the 2,721 cases
in December 2002 found
                                                     2,676 were resolved (98 percent).
             Status of Cases SSA Agreed to Resolve
                       as of December 2002                          45 continued to receive OASDI
                                                                     benefits despite their dates of
                             2%                                      death (2 percent). However, SSA
                                      Cases Resolved                 was actively pursuing the
                                                                     resolution of these cases at the
                                      Cases Still Being              time of our audit.
       98%                            Worked




12
     The 8 pilot sites cover beneficiaries and recipients in 26 States.
Page 7 – The Commissioner


Referrals to the Office of Investigations

SSA did not completely implement the portion of our recommendation to refer any
cases suspected to involve fraud to the OIG’s Office of Investigations. Our analysis of
the 2,721 records from our prior audit identified 490 auxiliary beneficiaries whose
benefits were terminated because of death.13 For the 490 auxiliary beneficiaries who
were actually deceased, we found that SSA

         recovered all payments after death for 423 beneficiaries (86 percent),
         recovered all but 1 month’s payment for 17 beneficiaries (4 percent), and
         did not recover all payments after death for 20 beneficiaries (4 percent)—these
          cases were referred to the Office of Investigations.

The remaining 30 cases (6 percent) resulted in improper payments after death totaling
$591,067 that SSA had not recovered as of November 2002. SSA did not refer these
30 cases to the Office of Investigations—even though SSA was unable to recover the
incorrect payments made after the beneficiaries’ deaths. The incorrect payments for
these 30 cases ranged from $1,400 to $52,000—with an average payment after death
of $19,702. Also, SSA benefits were paid to these 30 beneficiaries for an average of
38 months after their dates of death—and ranged from 3 months to 151 months.

Since these cases may have involved fraud, SSA staff should have referred them to the
Office of Investigations—in accordance with its strategic goal “To ensure the integrity of
Social Security programs, with zero tolerance for fraud and abuse.”14 By not referring
these cases to the Office of Investigations, SSA delayed the possibility of an
investigation to determine who spent the funds that were intended for the deceased
beneficiaries.15

REMINDING STAFF TO FOLLOW DEATH PROCESSING PROCEDURES

SSA implemented our prior recommendation to remind staff to fully follow procedures
when processing death alerts. Specifically, SSA issued a memorandum nationwide on




13
  Based on our December 2002 review of the original 5,033 auxiliary beneficiaries identified in our prior
audit, 995 were actually deceased and had their benefits terminated. This confirmed our estimate of
881 auxiliary beneficiaries (with a range of 669 to 1,129) in the prior report. Of the 995 actual deaths,
490 were in the group SSA agreed to resolve as part of our earlier recommendations. The remaining
505 cases were in the group the Office of Investigations reviewed under its BIC D project. Additionally,
the Office of Investigations obtained 116 convictions as of January 2003 for the cases it investigated
under its BIC D project.
14
     SSA’s Performance and Accountability Report, Fiscal Year 2002, page 33.
15
     We provided the 30 cases to the Office of Investigations in January and February 2003.
Page 8 – The Commissioner


April 11, 2001 reminding staff to fully follow procedures when processing death alerts.
The memorandum included instructions for initial claims, dual entitlement, and
concurrent entitlement.16

SSA issued an additional memorandum on September 11, 2002 reminding staff of
death termination and payment recovery procedures. The memorandum stated that
recovery of payments after death is the responsibility of the Department of the Treasury
and provided staff with instructions on how to follow up with Treasury. This
memorandum also reminded staff that it is imperative that the appropriate Payment
Center technicians follow up with Treasury to ensure all payments after death are
recovered.

CONCLUSIONS AND RECOMMENDATIONS
Generally, SSA implemented the recommendations from our prior report. We
encourage SSA to continue its on-going efforts to improve its death process and to
timely identify and resolve the cases from its quarterly matching of the DMF and MBR—
including the referral of any cases that may involve fraud to the OIG. Specifically, SSA
should:

1. Resolve the 630 auxiliary beneficiary cases identified during the quarterly death
   matches that remained open in December 2002.

2. Review the 2,069 auxiliary beneficiary cases we identified to determine why they
   were not identified during its quarterly death matches and alter its quarterly matches
   to identify such cases.

3. Remind staff that cases identified during SSA’s quarterly death matches where
   overpayments to deceased individuals were not fully recovered must be referred to
   the Office of Investigations.




16
  Concurrent entitlement exists when a beneficiary is entitled to payments under both the OASDI and
Supplemental Security Income programs.
Page 9 – The Commissioner


AGENCY COMMENTS
SSA agreed with our three recommendations. Specifically, SSA (1) plans to resolve the
630 cases discussed in Recommendation 1 by the end of December 2003; (2) expects
to complete its review of the remaining cases by the end of December 2003—and at
that time—determine whether the quarterly matching process needs to be altered; and
(3) plans to issue a reminder to staff regarding the referrals to the OIG. (See Appendix
C for the Agency’s comments.)




                                            James G. Huse, Jr.
                                                Appendices
APPENDIX A — Acronyms

APPENDIX B — Summary of Death Master File and Auxiliary Beneficiary Match as of
             December 2002

APPENDIX C — Agency Comments

APPENDIX D — OIG Contacts and Staff Acknowledgments
                                                      Appendix A
Acronyms
CFR     Code of Federal Regulations

DACUS   Death Alert, Control and Update System

DMF     Death Master File

MBR     Master Beneficiary Record

OASDI   Old-Age, Survivors and Disability Insurance

OIG     Office of the Inspector General

SSA     Social Security Administration

SSN     Social Security Number
                                                                          Appendix B
Summary of Death Master File and Auxiliary
Beneficiary Match as of December 2002
We matched a data extract of all auxiliary beneficiaries in current payment status on the
Master Beneficiary Record as of August 2002 with the Social Security Administration’s
(SSA) Death Master File (DMF) and identified 6,361 records. Our analysis of these
6,361 records found that SSA had resolved 3,662 (58 percent) by December 2002. The
remaining 2,699 auxiliary beneficiaries continued to receive benefits while having dates
of death on their records.

The table below summarizes the 2,699 auxiliary beneficiaries by transaction date. The
transaction date is the date SSA was informed of the death and thus posted it to the
DMF.

                                 Summary by Transaction Date
       Transaction Date            Number of          Date of Death Range
             on DMF                 Records          From               To
      July 20011                     1,956     November 1955 June 2001
      August 2001                       44     August 2000      July 2001
      September 2001                    55     July 2000        August 2001
      October 2001                      24     March 2001       September 2001
      November 2001                     76     December 2000 October 2001
      December 2001                     59     June 2000        November 2001
      January 2002                      52     May 2001         December 2001
      February 2002                     61     January 2001     January 2002
      March 2002                        65     May 19912        February 2002
      April 2002                        90     March 19943      March 2002
      May 2002                          67     September 2001 April 2002
      June 2002                         78     November 2000 May 2002
      July 2002                         72     July 2000        June 2002
                                     2,699




1
 Because of a DMF system change, records in the July 2001 column represent all transactions recorded
during July 2001 as well as all transactions recorded prior to that date.
2
  For records with a March 2002 transaction date, only one death occurred in May 1991. All other deaths
ranged from January 2001 to February 2002.
3
 For records with an April 2002 transaction date, only one death occurred in March 1994. All other
deaths ranged from April 2001 to March 2002.
                  Appendix C
Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM                                                                      32112-24-894

Date:      May 29, 2003                                                         Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Follow-up Review of Old-Age,
           Survivors and Disability Insurance Benefits Paid to Deceased Auxiliary Beneficiaries”
           (A-01-03-13037)—INFORMATION



           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Staff questions may be referred to Laura Bell at extension 52636.

           Attachment:
           SSA Response




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “FOLLOW-UP REVIEW OF OLD-AGE, SURVIVORS AND DISABILITY
INSURANCE BENEFITS PAID TO DECEASED AUXILIARY BENEFICIARIES”
(AUDIT NO. A-01-03-13037)


We appreciate the opportunity to review and comment on the draft report. Overall we agree with
the findings and recommendations. We are particularly pleased that page 6 of the report includes
a description of the additional actions we have taken to improve our overall death matching
process. We believe that significant progress has been made in recent years in the systems area
for matching death records and in the actual process of working and resolving death alerts. We
will continue our efforts to ensure the accuracy and reliability of the Death Master File (DMF).
Finally, we would like to take this opportunity to note that while issues still exist with DMF,
prior audits of the file found an accuracy rate exceeding 95 percent. Our responses to the
specific recommendations and a technical comment are provided below.

Recommendation 1

The Social Security Administration should resolve the 630 auxiliary beneficiary cases identified
during the quarterly death matches that remained open in December 2002.

SSA Response

We agree and have obtained the list of 630 Social Security Numbers from OIG. We will
distribute the list to the field offices by May 30, 2003. We expect to complete the review of
these cases by the end of December 2003.

Recommendation 2

SSA should review the 2,069 auxiliary beneficiary cases we identified to determine why they
were not identified during its quarterly death matches and alter its quarterly matches to identify
such cases.

SSA Response

We agree. OIG has provided the Agency the list of claims numbers that need to be reviewed.
The OIG will review 980 of the 2,069 cases that have been identified, and we plan to review the
remaining 1,719 cases by the end of December 2003. Once we determine the reason that the
cases were not identified, we will determine if changes are needed to the quarterly death match
process.

Recommendation 3

SSA should remind staff that cases identified during SSA’s quarterly death matches where
overpayments to deceased individuals were not fully recovered must be referred to the Office of
Investigations.


                                                C-2
SSA Response

We agree and will issue a national message to staff to coincide with the review of the above
mentioned cases in recommendation number two. In the interim, several regions are issuing
local reminders. We will also consider including this process in the revision of the procedural
instructions that are scheduled to be released by the Office of Income Security Programs in
August 2003.




                                               C-3
                                                                 Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts
       Rona Rustigian, Director, Northern Audit Division, (617) 565-1819

       Judith Oliveira, Deputy Director, (617) 565-1765

Staff Acknowledgments

In addition to those named above:

       Melinda Tabicas, Auditor

       Joseph LoVecchio, Auditor

       Kevin Joyce, Senior Auditor

       David Mazzola, Senior Auditor

       Charles Zaepfel, Computer Specialist

For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-01-03-13037.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                           Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
